Roy Black
Howard Srebnick
Scott A. Kornspan
Maria Neyra
Jackie Perczek
Mark A.J. Shapiro
Jared Lopez
Benjamin S. Waxman
Lance W. Shinder

Email: HSrebnick@RoyBlack.com

Frank Sardinha, III
Michèle C. van Meeteren
Alyssa Silvaggi
Robert T. Dunlap
Donald J. Hodson
Chelsea A. Hackman
Kyle A. Johnson
David D. Switzler
Jeanelle Gomez
OF COUNSEL:

Larry A. Stumpf (retired)

April 15, 2021
Hon. Scott Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
Re: Waked Hatum v. United States, No. 20-1370
Dear Mr. Harris:
I am counsel of record for the petitioner, Nidal Ahmed Waked
Hatum, who filed a Petition for a Writ of Certiorari on March 26, 2021.
According to the docket, the government’s response and any amici briefs
are due by April 30.
On April 5, the government notified the Court that it was waiving
its right to respond. On April 7 the case was distributed for the conference
of April 23, before the April 30 due date for amici briefs.
The National Association of Criminal Defense Lawyers has
obtained consent from the government and petitioner to file an amicus
brief in support of the petition. So that amicus may complete and timely

Hon. Scott Harris, Clerk
Supreme Court of the United States
April 15, 2021
Page 2
____________________
file its brief in accordance with the schedule provided by the rules,
petitioner requests that the April 23 conference be rescheduled for a date
after the April 30 deadline for amicus to timely file its brief.
Respectfully submitted,
Howard Srebnick
Counsel of Record
cc:

Office of the Solicitor General
Elliot Abrams (counsel for NACDL)
Joshua Greenberg (co-counsel for NACDL)

